No. 20-

 

 

IN THE

Supreme Court of the United States

NATHANIEL RICHARD HULL, IN HIS CAPACITY AS
CHAPTER 7 TRUSTEE FOR THE BANKRUPTCY ESTATE OF
JEFFREY J. ROCKWELL, PETITIONER

Vv.

JEFFREY J. ROCKWELL, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,781 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 13, 2020.

wh

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
